CREDIT CARD AGREEMENT
AND DISCLOSURES
THIS IS YOUR AGREEMENT AND DISCLOSURE
STATEMENT WITH ASSOCIATED CREDIT UNION.
PLEASE READ IT CAREFULLY AND KEEP IT FOR YOUR
RECORDS. IT SUPERSEDES ALL PRIOR AGREEMENTS
AND DISCLOSURE STATEMENTS RELATING TO
YOUR ACCOUNT. YOU DO NOT HAVE TO SIGN THIS
AGREEMENT. YOUR AGREEMENT TO ALL OF THESE
PROVISIONS, AS AMENDED FROM TIME TO TIME
INCLUDING THE CARD ISSUED BY US, WILL BE
SHOWN BY YOUR APPLICATION FOR THE CARD, YOUR
ACCEPTANCE OF THE CARD, OR YOUR USE OF THE
CARD, WHICHEVER OCCURS FIRST.
1. Definitions Used To Understand Your Agreement With
Us: In this Agreement, the word “Card” means either one
or more VISA credit cards and any duplicates, renewals or
substitutions we issue. The words, “you,” “your,” and “yours”
mean all cardholders (borrowers and co-borrowers); anyone
any cardholder permits to use the Card(s); as well as any
authorized user for whom an additional Card(s) is issued to
the extent of their purchases and cash advances, as well as
transactions by anyone they permit to use the Card(s). The
word “cardholder” means any applicant or co-applicant to
whom a Card is issued by us. The words “Credit Union,” “we,”
“us,” and “our” mean Associated Credit Union. “Applicable
Law” shall include: “(i) Visa U.S.A. Inc. Bylaws, Visa U.S.A.
Inc. Operating Regulations, Visa U.S.A. Inc. Certificate of
Incorporation, Visa International Bylaws, and Visa International
Operating Regulations; and (ii) any and all laws, treaties, rules,
regulations, or regulatory guidance of the government of the
United States, any state thereof, or of any applicable foreign
government or state thereof, as the same may be amended
and in effect from time to time.

1

ACU 360 (Rev 7/1/2020)

2. Your Pledge Of Shares And Security Interest For Your
Loan Advances:
BY SIGNING AN APPLICATION, ACCEPTANCE OR
AUTHORIZED USE OF ANY CREDIT CARDS, YOU GRANT
AND PLEDGE A CONSENSUAL LIEN TO US ON ALL
SHARES TO SECURE PAYMENT OF YOUR OBLIGATIONS
ON THIS ACCOUNT. IN ADDITION, YOU ACKNOWLEDGE
OUR STATUTORY LIEN RIGHTS UNDER GEORGIA STATE
STATUE; YOU AGREE THAT SUCH A LIEN IS IMPRESSED
AS OF THE DATE THAT THIS ACCOUNT IS OPENED;
AND YOU AGREE THAT WE CAN APPLY THE SHARES
PLEDGED AT THE TIME OF ANY DEFAULT ON THIS
ACCOUNT WITHOUT FURTHER NOTICE. “Shares” for
the purpose of your pledge to secure your obligations to
the Credit Union means all deposits in any share savings,
share draft, club, certificate, P.O.D., revocable trust or
custodial account(s), whether jointly or individually held -regardless of contributions, that you have on deposit now
or in the future. Your pledge does not include any I.R.A.,
Keogh, tax escrow, irrevocable trust or fiduciary account
in which you do not have a vested ownership interest.
Military Lending Act Partial Exception: If you or your
dependents are expressly covered and entitled to the
protections provided by the Military Lending Act then NO
PLEDGE OF SHARES OR LIEN ON SHARES APPLIES
EXCEPT FOR A SHARED SECURED CREDIT CARD
FOR WHICH YOU EXECUTE A SEPARATE SECURITY
AGREEMENT. Any provisions of the Agreement (below)
that address the items expressly excepted in any section
to the contrary also do not apply to such Loans.
SECURITY AGREEMENT: “Non-Purchase-Money Security
Interests” Payments on your Account are secured by any
security interest in any property securing your other obligations
to the Credit Union, whether existing now or in the future,
except your household goods and your primary residence.
“Purchase-Money Security Interests” You hereby grant Credit
Union security interest in all property purchased/acquired
by you or any authorized user pursuant to the use of this
Account, including a purchase-money security interest in any
household goods purchased / acquired with an extension of
credit upon this Account. These Purchase-Money Security
2

Interests shall secure faithful performance of all obligations
arising under this Agreement; and the Credit Union shall have
all of the rights of a secured party in accordance with Article
Nine of the Uniform Commercial Code and/or other applicable
law.
3. How To Use This Account: You must sign the Card in
order to use it. You can purchase or lease goods and services
(“Purchases”) from any merchant who honors your Card up
to your maximum credit limit by presenting your Card and
signing a sales slip. You may also use the Card to obtain cash
loans (“Cash Advances”) up to your maximum credit limit from
financial institutions that accept the VISA credit card. You
agree not to present your Card to obtain a Cash Advance (up
to $1000 per day) for any extension of credit in excess of your
available Credit Limit (the difference between your outstanding
balance and your maximum credit limit) on your account.
Certain purchases and cash advances require authorization
prior to completion of the transaction. In some cases, you may
be asked to provide identification. If our system is not working,
we may not be able to authorize a transaction, even though
you have sufficient credit available. Also, for security reasons,
we may block the use of your Card in certain countries or
geographic areas. We will have no liability to you or others if
any of these events occur.
You authorize us to honor any Purchase or Cash Advance you
make by telephone or mail on this account. You agree that a
signature is not necessary as identification in such cases. We
reserve the right to refuse to honor any request for credit, to
reduce your credit limit or terminate your account at any time
using our sole discretion, based on changes in the economy,
the Credit Union’s financial condition, your creditworthiness or
for any other reason not prohibited by law.
4. ATM Access: If you have received a personal identification
number (PIN), you may use your Card and PIN to obtain
Cash Advances at any Automatic Teller Machine (“ATM”) that
accepts your Card. Your PIN is confidential and should not
be disclosed to anyone. You agree not to write your PIN on
your Card, you will not keep your Card and PIN together,
and you will not provide your PIN to anyone who is not
an authorized user. Except as otherwise provided in this
agreement, advances through ATM access will be treated as
3

Cash Advances under this Agreement. Advances at authorized
ATM’s are limited to a total of $1,000 during any 24-hour
period. The total of all cash advances on your Visa Account
and any withdrawals from your other accounts through an
ATM in any 24-hour period may be combined for the purpose
of this limitation. Associated Credit Union charges a 3% ATM
Cash Advance fee. Owners of ATMs that we do not own
may charge fees in addition to any fees disclosed in this
Agreement. This is not a fee charged by your Credit Union;
however, any such fee will be added to your account. The
party charging the fee is required to provide appropriate
disclosures to you with regard to any such fees.
5. Your Maximum Credit Limit: Your Maximum Credit Limit
will appear on the new account welcome letter in which
you receive your Card and on your monthly statement. At
our discretion, we may change your credit limit at any time,
and may provide separate limits for purchases and for cash
advances. We will notify you if we do, either by mail or through
your monthly billing statement. You may request a change to
your credit limit by applying online, or contacting the Credit
Union by telephone or mail. Your continued use of the card
will show your agreement to any such increase. If you object
to an increase in your credit limit, you must notify Credit
Union in writing. Upon receipt of such notice, your credit
limit will be reduced to its prior limit; however, you will be
responsible to pay any amounts by which you have exceeded
the reduced limit. You agree to pay any amounts you owe
that exceed your maximum credit balance upon demand.
You agree we are not obligated to extend to you credit for
any amount that would cause your outstanding balance to
exceed your Maximum Credit Limit, or for any amount if your
outstanding balance already exceeds your Maximum Credit
Limit. Any increase in your Maximum Credit Limit requested
by you will require an written application for our approval. In
assessing your credit limit under the provisions in this Section
(either at our discretion or upon request): (a) we may and you
authorize us to review your credit history, including consumer
credit reports; (b) you authorize us to have this review made
by third parties to determine whether you meet the criteria
we have set for such an increase; and (c) this process shall
not be pre-screening under the Fair Credit Reporting Act or
other applicable laws or regulations based on our existing
relationship and this Agreement.
4

Credit balances in excess of $1.00 will be refunded to you
immediately after collection as provided herein by mailing
a check to the address to which statements are provided
payable to the order of any cardholder. You agree that the
Maximum Credit Limit will at no time exceed the agreed upon
amount, and that any credit balance will not be available or
increase the Maximum Credit Limit available for new purchases
or cash advances during any billing cycle.
Limits For ATM And Over-The-Counter Cash Advances
are set to $1,000 daily. Exceptions can be determined by
contacting the Credit Union’s VISA Department as set forth at
the end of this Agreement.
6. General Terms Governing Your Payments: You will be
jointly and severally liable and agree to pay the Credit Union
for all charges (purchases, cash advances, finance charges,
and other charges added to your Account under the terms
of this or any other agreements with us) extended to you or
anyone else using any Card issued for your account, unless
the use of such Card is by a person other than you, who does
not have actual, implied or apparent authority for such use and
from which you receive no benefit. Authority includes, but is
not limited to, any authorized users permitting another person
to use any Card(s). Further, all user’s are obligated to us for all
charges they make, authorize or permit. The Credit Union can
accept late or partial payments as well as payments that are
marked with “paid in full” or other restrictive endorsements,
without losing any of our rights under this Agreement. You
must pay the Credit Union in U.S. dollars drawn on funds on
deposit in the United States. If you make payment with other
currencies or from an institution domiciled outside the United
States, then your payment will not be credited until the funds
have been collected by us in U.S. dollars. The Credit Union
will determine the method of applying payments and credits to
your account, which will in all respect comply with any specific
requirements of applicable laws.
Unless otherwise required by specifically applicable laws, all
payments received during normal business hours, by 5:00
PM EST Monday-Friday, will be credited that day. Payments
received over the weekend or on a holiday will be credited the
next business day.
5

To protect you and us, the Credit Union, in its sole
discretion, may place a temporary freeze on all or part
of the credit available to you for new purchases or cash
advances under this agreement any time the Credit Union
receives a large payment ($2,500 or more), by a method
other than cash or certified funds, the Credit Union may
freeze your credit line for up to 8 days.
7. Minimum Payment Due: You can pay off your account
balance in full each month or you can pay in monthly
installments. If you do not pay your balance in full, you agree to
pay at least a minimum payment of 3% of your New Balance
(rounded to the nearest whole dollar) or $10.00, whichever
is greater at the end of each statement period. If the New
Balance shown on your periodic statement is $10.00 or less,
you agree to pay this amount. Unless the Credit Union takes
other action as a result of a default under this Agreement,
the Minimum Payment Due will also include any amount that
is past due and any amount by which your new balance
exceeds your credit limit. Payments and credits will be applied
first to pay billed but unpaid finance charges; annual fee (if
applicable); late charges, and other fees or charges provided
for herein; and next to unpaid cash advances; and then to
your unpaid purchase balance. The balance with the highest
interest rate will be paid off first. You must pay at least the
minimum payment each month, but you may pay more than
that amount at any time without a penalty. The sooner you
pay your new balance, the less you will have to pay in finance
charges. The “Payment Due Date” will be shown on your
periodic statement.
Grace Period For Repayment Of The Balance For
Purchases: Grace period for repayment of the balance for
purchases is approximately 25 days from the close of the
billing cycle. See your statement for billing cycle date.
8. Returns And Adjustments Regarding Your Transaction
With Merchants: Merchants and others who honor your Card
may give credit for returns or adjustments, and they will do so
by sending the Credit Union a credit which will be posted to
your Account. If your credits and payments exceed what you
owe the Credit Union, the amount will be applied against future
purchases and cash advances. If the credit balance amount is
$1.00 or more, it will be refunded upon your request.
6

9. Additional Charges For Transactions In A Foreign
Currency And “Cross-Border” Transactions.
Currency Conversion Fee: If you effect or authorize a
transaction with your access device in a currency other than
US Dollars, VISA will convert the charge into a US Dollar
amount. The VISA currency conversion procedure includes
use of either a government mandated exchange rate, or a
wholesale exchange rate selected by VISA, as applicable. The
exchange rate VISA uses will be a rate in effect on the day the
transaction is processed. This rate may differ from the rate in
effect on the date of the purchase or the date the transaction
was posted to your account. A Currency Conversion Fee of up
to 2% will be applied to transactions that are converted from
foreign currencies to U.S. dollars. Cross-Border Transaction
Fee: In addition, VISA charges us a Cross-Border Assessment
up to 1% on each transaction on all cross border transactions
regardless of whether there is a currency conversion. For
purposes of this Section, “cross-border transaction” shall
include both (a) transactions initiated in a foreign country
which are subsequently settled in the United States, and
(b) transactions initiated in the United States but which are
ultimately settled in a country outside of the United States.
The Credit Union will assess these fees to you to reimburse
it for the fee it is required to pay for each of your transactions
subject to these terms. The Cross-Border transaction fee will
be shown separately on your periodic billing statement. The
Currency Conversion Fee, if it applies to the transaction, will be
included in the transaction amount posted on your statement.
10. Finance Charges: WILL BE IMPOSED IN THE
FOLLOWING MANNER AND WILL BE IN AMOUNTS NOT IN
EXCESS OF THOSE PERMITTED BY LAW:
(a) PURCHASES: (1) No finance charge will be imposed
during the next billing cycle (defined as the time interval
between regular monthly billing statement dates) if you pay the
entire new balance shown on the current periodic statement
and we receive your payment on or before the payment due
date shown on the statement. (2) In all other cases, a finance
charge will be imposed based on the average daily balance
of all purchases and debit adjustments, hereafter referred
to as purchases. The average daily balance is the sum of all
outstanding purchases, which is determined by including new
purchases and deducting payments or credits and excluding
7

any unpaid finance charge for your Account on each day of
the billing cycle divided by the number of days in the billing
cycle. A purchase appearing on the periodic statement is
considered a part of the outstanding balance from the date
of posting. (3) The amount of the finance charge is calculated
by multiplying the average daily balance for purchases by the
monthly periodic rate. The monthly periodic rate is the yearly
interest rate divided by 12.
(b) CASH ADVANCES: (1) Finance charges accrue on all cash
advance amounts from the date charged to your Account
and continue so long as such amounts remain outstanding.
(2) A finance charge will be imposed on the average daily
balance of cash advances, which is the sum of the cash
advances (determined by including new cash advances and
deducting any payments or credits and excluding any unpaid
finance charge) outstanding each day during the billing cycle,
divided by the number of days in the billing cycle. A cash
advance appearing on the periodic statement is considered
a part of the outstanding balance from the date of posting.
(3) The amount of finance charge is calculated by multiplying
the average daily balance for cash advances by the monthly
periodic rate.
If you obtain a cash advance; in addition to the Finance
Charges calculated above, a cash advance transaction
fee FINANCE CHARGE in the form of a single Service Fee
(3%, minimum $3) will be imposed on each Cash Advance
transaction.
(c) BALANCE TRANSFER: (1) No finance charge will be
imposed during the next billing cycle (defined as the time
interval between regular monthly billing statement dates) if
you pay the entire new balance shown on the current periodic
statement and we receive your payment on or before the
payment due date shown on the statement. (2) In all other
cases, a finance charge will be imposed based on the
average daily balance of all balance transfers. The average
daily balance is the sum of all outstanding balance transfers,
which is determined by including new balance transfers and
deducting payments or credits and excluding any unpaid
finance charge for your Account on each day of the billing
cycle divided by the number of days in the billing cycle. A
balance transfers appearing on the periodic statement is
8

considered a part of the outstanding balance from the date
of posting. (3) The amount of the finance charge is calculated
by multiplying the average daily balance for balance transfers
by the monthly periodic rate. The monthly periodic rate is the
yearly interest rate divided by 12.
If you perform a balance transfer; in addition to the Finance
Charges calculated above, a balance transfer fee FINANCE
CHARGE in the form of a single Service Fee (3%, minimum
$10) will be imposed on each Balance Transfer transaction.
11.“Promotional Rate” Finance Charges: From time
to time and in our sole discretion we may offer a special
rate applicable to certain transactions such as particular
purchases (as defined by us), balance transfers, cash
advances or purchases. Applicable terms and conditions
will be disclosed at the time any such promotion is offered,
and are incorporated into this Agreement by reference. The
promotional rate will apply only to the transactions and for
the period of time set forth in any such offer from us. Existing
balances and new purchases or advances not expressly
subject to any such promotion will remain governed by the
terms and conditions of this Agreement. In addition, the terms
and conditions of this Agreement will govern your obligations
regarding any unpaid balance or transactions that are made
subject to any such promotional offer, that are not fully paid
within the time period set forth in such promotional offer.
12. The Credit Union will adjust the interest rate on your
account whenever your account is 60 days past due. We will
change your interest rate to a fixed rate of 18% ANNUAL
PERCENTAGE RATE (or less in the Credit Union’s discretion)
which is a monthly periodic rate of 1.50%, on the first day of
the billing cycle following the cycle that was 60 days past due.
Once the interest rate has been adjusted you will be notified
in writing of the new rate. After twelve (12) consecutive billing
cycles of your account being paid pursuant to the terms of
your agreements with the Credit Union, you may reapply for a
lower interest rate.
13. Monthly Statement. We will send you a monthly billing
statement whenever there is activity on your account. Your
monthly statement will show an itemized list of current charges
(Purchases and Cash Advances) to your account, your
9

new balance, any Finance Charges, the minimum payment
due, and the payment due date. In addition, it will show
your current credit limit, payments, and credits, a summary
showing your Purchases and Cash Advances, the merchant,
electronic terminal or financial institution at which transactions
were made, as well as other information concerning your
account. Sales, Cash Advance, credit or other slips cannot
be returned with any statement. You will retain a copy of such
slip furnished at the time of the transaction in order to verify
your monthly statement. E-Statements you will be notified
that your statement is available electronically via an emailed
notice that will direct you to a site we maintain or cause to be
maintained where you may access, review, print and otherwise
copy / download your periodic statements using procedures
that we authorize. E-mails from us will be sent to the e-mail
address provided by any owner.
14. Additional Benefits/Card Enhancements: The Credit
Union may from time to time offer additional services to your
Account, such as travel accident insurance, purchase rewards
or rebates at no additional cost to you. You understand that
the Credit Union is not obligated to continue or to offer such
services and may withdraw or change them at any time. If
these benefits are withdrawn prior to any accrued use by you,
the Credit Union will have no obligation to provide the benefit
or enhancement, or any other compensation or consideration.
15. Merchant Disputes: The Credit Union is not responsible
for the refusal of my merchant or financial institution to honor
your Card except as set forth in the Special Rules for Credit
Card Purchases set forth at the end of this Agreement.
16. Late Payment Fee. Credit Union will charge your account
a late payment fee of up to $35.00, but not less than $10.00
for each billing period in which your minimum payment is not
received within ten (10) days of your payment due date. This
fee may be added to your account balance, or collected from
you on demand.
17. Returned Payment Or Insufficient Funds Fee. Credit
Union will charge your account a maximum fee of $35, if your
payment by any method, including check, electronic transfer,
home banking transaction or otherwise, is not honored,
collected by us, or if we must return it to you because it
10

cannot be processed for any reason. This fee may be added
to your account balance, or collected from you on demand.
18. Card Recovery Fee: A card recovery fee of $75.00 will
be charged if you use the card(s) after we mail you notice of
termination of this Agreement.
19. Fees For MTSs: Until we post an amendment, we will
not charge you any fees for the MTS Services. Once we begin
charging fees we will add those fees and charges as disclosed
automatically from your Card balance at the time a fee or
charge is incurred for MTSs sent or received.
20. Your Responsibility And Liability For Unauthorized Use
And Lost Or Stolen Cards: If your Card is lost or stolen, or if
you are afraid someone used or may use them without your
permission, you must notify the Credit Union at once by calling
1-888-339-0228. If notice is given orally, you will promptly
confirm it in writing. The Credit Union may require you to
provide us certain information in writing to help us investigate
any unauthorized use. Further, you agree to cooperate and
assist us or any government or law enforcement agent or
agency in investigating, collecting or pursuing any other rights
(civil and criminal) relating to any unauthorized use. In this
regard, you agree to file an appropriate police report when
asked to do so. Do not use the Card after you have notified
the Credit Union, even if you find it or it is returned to you.
You are liable for all transactions that you authorize. No
Liability: You will have no liability for unauthorized use of
your Card or other Access Devices for non-ATM transactions
made over the VISA Network if the following conditions are
met: (1) You have not been grossly negligent; and (2) You
have not committed, participated in or conspired to commit
any fraudulent act or scheme involving the use of your VISA
credit card account. Limited Liability: For transactions on
other networks or ATM transactions, you may be liable for
unauthorized transactions using your Card or other Access
Devices that occur before we are notified. However, your
liability for unauthorized use on networks other than VISA
will not exceed $50.00. In any case, you will not be liable for
any unauthorized use after notifying us of the loss, theft or
unauthorized use of your Card or other Access Devices.
11

21. Our Liability For Failure To Complete Transactions: If
we do not complete a transaction pursuant to any request,
and/or in the correct amount, we may be liable for your losses
or damages. However, there are some exceptions. We will not
be liable, for instance:
• if through no fault of ours, you do not have adequate funds
available on your Card to complete the transaction;
• if circumstances beyond our control (such as fire, flood,
terrorist attack, national emergency, or computer or
communication failure) prevent the completion of the
transaction, despite reasonable precautions we have
taken;
• if access to your Card has been blocked after you reported
your Card lost or stolen;
• if there is a hold on your Card for any reason;
• if your funds are subject to legal process or other
encumbrance restricting their use;
• if your transfer authorization terminates by operation of
law;
• if a computer system or mobile device was not working
properly and you knew about the problem when you
initiated the transaction;
• if we have reason to believe that the requested transaction
is not authorized; or
• as otherwise provided in this Agreement.
22. What The Credit Union May Do If You Do Not Meet
Your Obligations Under This Agreement (“Default”): You
will be in default if: (a) you fail to pay the Minimum Payment
Due by the Payment Due Date; (b) the Credit Union, in its sole
discretion, feels insecure (For example: Our good faith belief
that your ability to pay your account is impaired; use of your
account in any manner or in any way that may expose the
Credit Union to a risk of loss; etc.); (c) your ability to repay
is materially reduced by a change in your employment, by
an increase in your obligations, by bankruptcy or insolvency
proceedings involving you, by your death, or (for community
property state residents only) by a change in marital
status or domicile; (d) you exceed your credit limit without
our permission; (e) you have made a false or misleading
statement to us in your application or otherwise; (f) you are
in default under any other agreement with us; (g) if you use
or authorize the use of any Card(s) to make or facilitate any
12

illegal transaction; or (h) you fail to perform any of your other
obligations under the terms of this Agreement as it may be
amended from time to time. Upon default we may close your
Account to future purchases and advances and, to the extent
not prohibited by Governing Law, demand immediate payment
of your entire Account balance, after giving you any notice and
opportunity to cure the default if required by applicable law.
The Credit Union’s sole obligation hereunder with regard to
determining and declaring an event of default is the exercise
of “good faith,” based on its subjective understanding of
applicable facts. We shall also have the right to close your
account and terminate access privileges where your account is
inactive for such periods of time as we may from time-to-time
determine to be appropriate for protecting both our and your
interests.
23. When You May Be Responsible For Legal And Other
Costs. You agree to pay all costs incurred by the Credit
Union in collecting any amounts you owe or in enforcing or
protecting the Credit Union’s rights under this Agreement,
including attorneys’ fees of the unpaid balance or such greater
sum as may be reasonable, and also those costs, expenses
and attorneys’ fees incurred in any appellate, bankruptcy and
post-judgment proceedings, except as limited or prohibited by
applicable law.
24. Updating And Disclosing Financial Information: We
may report your performance under this Agreement to credit
reporting agencies and secure follow-up credit reports on
you for any legitimate business reason, including if you fail to
make your minimum payments on time. We can reinvestigate
and reevaluate any information you provide on your Visa
Application at any time, and in the course of doing so, we
may ask you to provide additional information, request
credit bureau reports and/or otherwise verify your current
credit standing. Access to Account Information: You agree
that all borrowers will have access to information regarding
transactions on your account, including but not limited to
purchases and cash advances, account balances, account
history, payments and other information relating to or arising
with regard to this account or any transaction. Change of
Name, Address or Employment. You will notify immediately
the Credit Union in writing if your name, home address, or
employment changes.
13

25. Correcting The Credit Union’s Credit Report: If you
think the Credit Union reported erroneous information about
you to a credit reporting agency, call the Credit Union at the
telephone number listed on your monthly billing statement.
Credit Union will promptly investigate the matter. The member
will be responsible for contacting each credit reporting agency
whose records may reflect an error. Credit Union will require
them to correct your report if its investigation decides that
you were correct. If Credit Union disagrees with you after
the investigation, Credit Union will advise you, in writing or
by phone, and instruct you how to submit to those agencies
a statement of your position that will become a part of your
credit record with them. The instructions will include the name,
address, and phone number of each such agency, along with
other pertinent information.
26. When Your Account May Be Closed And Effects Of
Account Closing: Any individual cardholder without the
consent of other cardholders may close your Account at any
time by notifying us in writing as indicated in this Agreement.
Credit Union may close your account or suspend your Card
privileges at any time without prior notice. Credit Union may
also reissue a different Card at any time. You must return the
Card to the Credit Union upon request. You agree that the
Card remain the property of Credit Union. Each Card we issue
will have an expiration date. Upon expiration of your Card your
account will automatically terminate; or the Credit Union, in
its sole discretion, may extend your Agreement and issue a
new card with a new expiration date. If your account is closed,
expires or your credit privileges are terminated or suspended,
you will remain responsible for paying all amounts you owe us
according to the terms of this Agreement. Without limiting the
foregoing, the Credit Union has the right to terminate your line
of credit or any part of the services provided pursuant to this
Agreement and to demand the return of all cards and other
access devices if the Credit Union, in its sole discretion, feels
that it is insecure for any reason whatsoever; including but not
limited to mismanagement of your account, failing to safeguard
any access device, creation of any credit balances by you that
may increase the risk of loss or exposure of the Credit Union
or failing to cooperate with the Credit Union or others with
regard to any claim of unauthorized use or any other defense
to payment under applicable law.
14

27. Changing This Agreement: The Credit Union may change
the terms of this Agreement, including the Annual Percentage
Rate, at any time. Except where limited by applicable law, the
new terms, including, but not limited to, increasing the finance
charge or the way the Credit Union calculates finance charges,
late charges, and the minimum payment due, will apply both
to new purchases and cash advances and to the existing
outstanding balance of your account as of the day of the
change. In accordance with applicable law, the Credit Union
will notify you of any increased charge or change by writing to
you at the most recent address shown for you on the Credit
Union’s records.
28. The Effect Of Any Delay In Enforcement Or Waiver:
The Credit Union may delay or waive enforcement of any of
the provisions of this Agreement, including any agreement to
make timely payments, without losing its right to enforce the
same provision later or any other provisions of this Agreement.
You waive the right to receive notice of any waiver or delay or
presentment, demand, protest or dishonor. You also waive any
applicable statute of limitations to the full extent permitted by
law and any right you may otherwise have to require the Credit
Union to proceed against any person before suing you to
collect. You understand that the Credit Union will not be liable
for a merchant’s or other parties’ refusal to honor your Card
whether due to an error by the Credit Union, the merchant, the
Credit Union’s authorized agent, or other third party.
29. Additional Terms Of Agreement: To the extent not
prohibited by applicable law, the terms, interpretation and
enforcement of any claim or dispute arising under this
Agreement, as well as all parties’ rights and duties, will be
governed by Georgia State law regardless where you may
reside or use your account. Further, this Agreement is the
contract which governs all transactions on your Account even
though sales, cash advances, credit or other slips may contain
different terms.
You may not transfer or assign your account or Card to
any other person. The Credit Union may assign or transfer
this Account, your Account balance, or this Agreement to
another person, who will have all of our rights hereunder. This
Agreement is binding on your heirs and legal representatives.
If there are joint obligors or authorized users for this credit
15

plan, each of you will have the right to use the Account to
obtain loans pursuant to the terms hereof. Any one obligor’s
elections, transactions and directions to the Credit Union shall
be binding upon all obligors. Each of you will be liable for all
obligations owing on the Account whether borrowed by you or
otherwise and whether within or beyond the credit limit. Your
liability will be joint and several. Either party has the right to
cancel this Agreement. Further each of you is responsible for
all amounts borrowed by any authorized user(s). Authorized
users and other users may also be required to repay the
amount owed for charges they make; however, you remain, at
all times, primarily responsible for all amounts owed. All Cards,
billing statements and notices will be mailed or delivered to the
address given on the application for either applicant unless you
direct otherwise in writing. If any law or judicial ruling makes
any part, provision, sentence or section of this Agreement
unenforceable, the remainder will continue in full force and
effect.
30. Credit Insurance: If you elect insurance, as set forth
in your application, then the charges will be added to your
Account balance on each billing cycle, if your insurance
application is approved. Credit insurance is voluntary and not
required to obtain a credit card account with us. You have a
right to terminate this insurance at anytime by notifying us in
writing.
31. Compliance With Applicable Laws And Prohibition Of
Illegal Transactions: You warrant and agree that you will at all
times comply with all Applicable Laws; and that your card and
services are at all times subject to Applicable Laws. Further,
you agree and warrant that your Credit Card, other access
device or any related account will not be used to make or
facilitate any illegal transaction(s) as determined by applicable
law; and that any such use, including any such authorized
use, will constitute an event of default under this Agreement.
Certain federal and/or state laws or Card Service Providers’
Rules may limit or prohibit certain transactions such as (but
not limited to) those coded as possible gambling transactions.
The Credit Union may decline to accept, process or pay any
transaction that we believe to be illegal or unenforceable
(regarding your obligation to pay us or otherwise) under
applicable law; or which is otherwise limited or prohibited,
including but not limited to any transaction involving or relating
16

to any gambling activity. Such prohibition or limitations may
affect some otherwise proper or allowable transactions such
as charges incurred at a hotel-casino. You understand and
agree such limitations/prohibitions are not within the Credit
Union’s control and that the Credit Union will not have any
liability, responsibility or culpability whatsoever for any such use
by you or any authorized user(s); or for declining to accept,
process, or pay any such transaction. You further agree to
indemnify and hold the Credit Union harmless from any suits,
liability, damages or adverse action of any kind that results
directly or indirectly from any such use of your account and/or
access devices.
32. SKIP PAYMENT OPTION: At our option, we may offer
you the opportunity to not make (“skip”) a minimum payment
during certain designated billing cycles (“skip payment
period”). If you do not make your minimum payments as
provided in this Agreement, during such designated billing
cycles, you understand that we will continue to apply finance
charges to your account. Beginning with the billing cycle
following an allowed skip payment period, all other provisions
of this Agreement will apply. We have no obligation to accept
your application for any skip payment period offered, and you
authorize us to investigate your creditworthiness including
obtaining consumer credit reports. We may charge you an
application processing fee of up to $35.00 for each skip
payment period that we may offer to cover our costs of
investigating your qualifications for this extension including
but not limited to the costs associated with researching you
creditworthiness.
33. Scorecard Rewards. Members using ACU’s Platinum Visa
Credit Card earn one point for each dollar spent. Points earned
with your credit card can be combined with those earned
from your check card. Redeem your points for travel awards
or brand name merchandise at scorecardrewards.com. All
rewards mentioned/shown may not be available at all times.
Rewards availability is determined by ScoreCard® Program
providers. Visit scorecardrewards.com for current merchandise
and travel rewards. ScoreCard Rewards are governed by the
terms your agreements and may have certain limitations such
as keeping any promises you make to the Credit Union.

17

34. VISA Account Updater (VAU) VAU is an account updating
service in which your card is automatically enrolled. When your
card(s) expire, are lost or stolen and new cards are issued,
the service may update relevant card data (card numbers and
expiration dates) to appropriate merchants who participate in
an effort to facilitate uninterrupted processing of your recurring
charges. This service provides updates to a Visa database
only. The database is accessed by those qualified merchants
seeking your account information after you have requested
they process a recurring payment or payments. This service
is provided as a free benefit to you. If at any time you wish to
opt-out of the VAU service or if you have any questions, please
call 800-952-1927 to do so.
OUR BILLING RIGHTS STATEMENT
KEEP THIS NOTICE FOR FUTURE USE
This Notice contains important information about your rights
and our responsibilities under the Fair Credit Billing Act.
NOTIFY US IN CASE OF ERRORS OR QUESTIONS
ABOUT YOU STATEMENT / BILLING AT:
ASSOCIATED CREDIT UNION
6251 CROOKED CREEK ROAD
PEACHTREE CORNERS, GA 30092
If you think your statement is wrong, or if you need more
information about a transaction on your statement, you must
write to us on a separate sheet of paper to the address listed
above. You should write to us as soon as possible. We must
hear from you no later than 60 days after we sent you the first
statement on which the error or problem appeared. You can
telephone us, but doing so will not preserve your rights. In your
letter, you should give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe
there is an error.
• If you need more information, describe the item you are
not sure about.

18

If you have authorized us to pay your credit card bill
automatically from your savings or checking account, you can
stop payment on any amount you think is wrong. To stop the
payment, your letter must reach us 3 business days before the
automatic payment is scheduled to occur.
YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER WE
RECEIVE YOUR WRITTEN NOTICE:
We must acknowledge your letter within 30 days from the
transaction date, unless we have corrected the error by then.
Within 90 days, we must either correct the error or explain why
we believe the bill was correct.
After we receive your letter, we cannot try to collect any
amount you question, or report you as delinquent. We can
continue to bill you for the amount you question, including
FINANCE CHARGES, and we can apply any unpaid
amount against your credit limit. You do not have to pay any
questioned amount while we are investigating, but you are still
obligated to pay the parts of the bill that are not in question.
If we find that we made a mistake on your statement, you
will not have to pay the FINANCE CHARGES related to any
questioned amount. If we didn’t make a mistake, you may
have to pay FINANCES CHARGES, and you will have to make
up any missed payments on the questioned amount. In either
case, we will send you a statement of the amount you owe us
and the date that it is due.
If you fail to pay the amount we think you owe us, we may
report you as delinquent. However, if our explanation does
not satisfy you and you write us within 10 days telling us that
you still refuse to pay, we must tell anyone we report you
to that you have a question about your statement. And, we
must tell you the name of anyone we reported you to. We
must tell anyone we report you to that the matter has been
settled between you and us when it finally is. If we don’t follow
these rules, we can’t collect the first $50.00 of the questioned
amount, even if the statement was correct.
SPECIAL RULE FOR CREDIT CARD PURCHASES:
If you have a problem with the quality of property or services
that you purchased with a credit card, and you have tried in
19

good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
property or services. There are two limitations on this right:
1. You must have made the purchases in your home state
or, if not within your home state, within 100 miles of your
current mailing address; and
2. The purchase must have been more than $50.00.
3. These limitations do not apply if we own or operate the
merchant, or if we mailed you the advertisement for the
property or services.
If you feel that you need Counseling or Debt Management
services, please contact Clearpoint Credit Counseling
Solutions toll free at 1-800-251-2227 or visit them on the web
at www.cccsinc.org. You may also visit www.frbatlanta.org for
a list of Counseling and Debt Management Services.
CONTACT INFORMATION
Associated Credit Union
6251 Crooked Creek Road
Peachtree Corners, GA 30092
Toll Free 1-800-952-1927
To Report A Lost Or Stolen Card Or Other Access Device
After Hours
Call: 1-888-339-0228
To Report A Lost Or Stolen VISA® Card After Hours
Call: 1-888-339-0228
To Close The Account: (SEND WRITTEN NOTICE)
Associated Credit Union
6251 Crooked Creek Road
Peachtree Corners, GA 30092
Direct All Other Reports, Requests And Inquiries To:
Associated Credit Union
6251 Crooked Creek Rd
Peachtree Corners, GA 30092
770-448-8200
800-952-1927
20

ACU 360 (Rev 7/1/2020)

